No.

In the
Supreme Court of the United States
CARLOS CRUZ-RIVERA,
Petitioner,
v.
UNITED STATES,
Respondent.
CERTIFICATE OF SERVICE
I hereby certify that on this day I served one copy of a Petition for Writ
of Certiorari to the United States Court of Appeals for the First Circuit and
one copy of Petitioner’s Motion for Leave to Proceed In Forma Pauperis, by
first class mail, upon the following recipient:
Mr. Noel J. Francisco
Solicitor General
U.S. Dept. of Justice. Rm 5614
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
August 29, 2020

/s/ Ines McGillion
Ines de Crombrugghe McGillion
Petitioner’s Appointed Counsel of Record
S. Ct. Bar No. 295917
Ines McGillion Law Offices, PLLC
P.O. Box 212
126 Main Street
Putney, VT 05346
(646) 246-3868
ines@mcgillionlaw.com

